BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae World Faith Foundation and Institute
for Faith and Family in Support of Petitioners in 201088, David and Amy Carson, as parents and next
friends of 0. C., et al. v. A. Pender Makin, were sent via
Three Day Service to the U.S. Supreme Court, and 3
copies were sent via Three Day Service and e-mail to
the following parties listed below, this 7th day of
September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org
Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

James L. Hirsen
Counsel of Record
505 S. Villa Real Drive
Suite 101
Anaheim Hills, CA 92807
(714) 283-8880
james@jameshirsen.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 7, 2021.

Donna J. Wolf
Becker Gallagher Legal Pub · ring, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:i : : ~ o O J -/

J~ ·

Notary Public
[seal]

